Audit of USAID Missions’ Management of U.S.
Personal Services Contractors
Audit Report Number 9-000-04-006-P
September 16, 2004




                Washington, D.C.
(Page intentionally left blank.)
September 16, 2004



To:         M/OAA/OD, Timothy T. Beans

From:       IG/A/PA Director, Nathan S. Lokos /s/

Subject:    Audit of USAID Missions’ Management of U.S. Personal Services Contractors
            (Report No. 9-000-04-006-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on our draft report and have included this response as Appendix II.

The report includes one recommendation to strengthen USAID’s management of U.S. personal
services contracts. In your written comments, you concurred with the recommendation and have
identified actions to address our concerns. Therefore, we consider that a management decision has
been reached and that final action is pending on the recommendation. Information related to your
final action on the recommendation should be provided to USAID’s Office of Management
Planning and Innovation.

I want to express my sincere appreciation for the cooperation and courtesies extended to my staff
during the audit.
(Page intentionally left blank.)




                                   2
Table of   Summary of Results                                      5
Contents   Background                                              5

           Audit Objectives                                        6

           Audit Findings                                          6

                  Did USAID missions determine
                  their requirements for U.S. personal services
                  contractors in accordance with USAID
                  policies and procedures?                         6

                  Did USAID missions award U.S.
                  personal services contracts in accordance with
                  selected USAID policies and procedures?          8

                         USAID Guidance on Contract
                         Extensions Need To Be Clarified           11

           Evaluation of Management Comments                       12

           Appendix I – Scope and Methodology                      13

           Appendix II – Management Comments                       15

           Appendix III – Summary of Audit Recommendations         17

           Appendix IV – Worldwide Audit Reports Issued            19




                                                                        3
(Page intentionally left blank.)




                                   4
Summary of
Results      This worldwide audit was conducted to determine whether (1) USAID missions had
             established their requirements for U.S. personal services contractors (USPSCs) in
             accordance with USAID policies and procedures and (2) USAID missions awarded
             U.S. personal services contracts in accordance with selected USAID policies and
             procedures. This audit report summarizes the results of audits of eight USAID
             missions. (See Appendix III for a summary of audit recommendations and
             Appendix IV for a list of audit reports issued.) The audit showed USAID missions
             had determined their USPSC staffing requirements in accordance with USAID
             policies and procedures (see page 6). Also, except for isolated exceptions, USAID
             missions had awarded their U.S. personal services contracts in accordance with
             selected USAID policies and procedures (see pages 8 and 9).

             The audit concluded that USAID’s policies on contract extensions and renewals
             need additional clarification for consistency in application at all USAID
             missions. We recommended that the Office of Acquisition and Assistance issue
             interim guidance that requires 1) contracts (including extensions/renewals) with
             personal services contractors be limited to 5 years and 2) contracts with personal
             services contractors be re-competed if major changes have been made in the
             associated position description—even if such changes occur prior to the fifth year
             of the contract (see page 11).

             Management concurred with the recommendation and plans to issue an
             Acquisition and Assistance Policy Directive (AAPD) to clarify the above issues
             before December 31, 2004. The AAPD constitutes interim guidance pending
             planned revisions to the USAID Acquisition Regulation (AIDAR) Appendices D
             and J and issuance of a new Automated Directives System (ADS) Chapter on
             personal services contractors’ policy and procedures (see page 12).



Background
             USAID’s core workforce consists of four distinct groups: (1) U.S. foreign service
             direct hire; (2) U.S. civil service direct hire; (3) U.S. personal services contractors
             (USPSCs); and (4) foreign service nationals and third country nationals1—which
             can be either direct hires or personal services contractors.

             Of these groups, USPSCs have become an increasingly important element of
             USAID’s workforce. Because of downsizing and a reduction-in-force in 1996, the
             number of U.S. direct hires declined from 3,262 at September 30, 1990 to 2,152 at
             March 31, 2004—a 34 percent reduction. As a result, USAID has relied more and


             1
              Foreign service nationals are hired in their country of citizenship through the local USAID
             mission. Third country nationals are hired from a third country.



                                                                                                            5
                   more on USPSCs to supplement its workforce. At March 31, 2004, USAID’s 594
                   USPSCs made up 7.6 percent of its workforce.

                   USPSCs are recruited either locally or internationally, based on the required skill
                   level and availability.

                   Locally Recruited USPSCs

                   USPSCs recruited locally offer skills and experience that are not available in the
                   local labor force or that would be expensive to import. Locally recruited
                   USPSCs often provide services that are short term in nature, such as
                   administrative management, secretarial functions, and project management.
                   These individuals receive limited benefits and allowances.

                   Internationally Recruited USPSCs

                   USPSCs recruited internationally often possess specialized technical skills.
                   These individuals are often recruited under long term contracts and receive
                   benefits and allowances that are similar to those of a U.S. direct hire employee.

                   Personal services contracts are employment contracts and USPSCs, for most
                   purposes, are considered employees of the U.S. government. Consequently, when
                   determining its needs for USPSCs and in employing them, USAID missions must
                   comply with certain USAID policies and procedures.



Audit Objectives   The Office of Inspector General's Performance Audits Division conducted this
                   worldwide audit as part of its annual audit plan to answer the following audit
                   objectives:

                   Did USAID missions determine their requirements for U.S. personal services
                   contractors in accordance with USAID policies and procedures?

                   Did USAID missions award U.S. personal services contracts in accordance
                   with selected USAID policies and procedures?

                   Appendix I contains a complete discussion of the scope and methodology for the
                   audit.


Audit Findings     Did USAID missions determine their requirements for U.S. personal services
                   contractors in accordance with USAID policies and procedures?

                   USAID missions determined their requirements for USPSCs in accordance with
                   USAID policies and procedures.


                                                                                                         6
Those policies and procedures are contained in USAID’s Automated Directives
System (ADS) in the form of a USAID General Notice addressing the
“Appropriate Use and Funding of USAID’s Non-Direct Hire Workforce.”2 This
notice provides USAID managers with information and guidance on the
appropriate roles, responsibilities, and employment mechanisms for the various
types of personnel working with USAID. For example, among other things, the
notice states that:

       •   Direct hire U.S. citizens shall perform the basic work of USAID.

       •   The first option for filling a position that must be filled by a U.S. citizen
           is the assignment of a direct hire employee.

       •   A USPSC should only be considered when the staffing requirement is
           clearly temporary, when the local recruitment of U.S. citizens is uniquely
           suitable, or when all alternatives for utilizing direct hires have been
           exhausted.

According to mission officials, USAID overseas missions are allocated a set
number of USDH positions based on a variety of factors, including, but not
limited to, the complexity of the program, the level of funding, and whether the
mission provides regional services. Missions have used these limited direct hire
positions to staff the basic functions of the mission, such as those performed by
the director, the controller, and contracting officer. This limited availability of
USDHs necessarily impacts how a mission is able to fill other positions requiring
U.S. citizens. When mission management is not successful in petitioning
USAID/Washington for additional USDHs, it looks to other mechanisms to fill
positions that do not absolutely require direct hire authorities.3

For example, this was the case with the deputy team leader positions for both the
USAID/Dominican Republic’s economic growth and democracy teams. For a
variety of reasons, such as the need for broad international expertise and the
greater credibility given to Americans by host country counterparts when
discussing government policy, Mission officials felt it was important to fill the
positions with U.S. citizens. Given the lack of available USDH positions, the
Mission filled these jobs with USPSCs. Similarly, when USAID/Dominican
Republic’s executive officer and program officer positions were temporarily

2
    ADS 400 Series Updates, Part I, 1995 #2.
3
  USAID Acquisition Regulation Appendix D, Section 4.b.3, indicates that personal services
contractors cannot (1) supervise USDH or other U.S. government employees, (2) be designated as
contracting officers or delegated authority to sign obligating or sub-obligating documents, (3)
communicate a final USAID policy, planning or budget decision unless that communication has
been cleared by a USDH, and (4) make a final decision on personnel selection. The Assistant
Administrator for Management must approve exceptions to these limitations.




                                                                                                  7
vacant, the Mission filled the positions with USPSCs. Both of these positions
were ultimately filled by USDHs.

Similarly, USAID/Indonesia also used its limited direct hire positions to staff the
basic functions of the mission such as those performed by the director and deputy
director, the controller and deputy controller, executive officer, program officer,
contracting officers, and legal advisor. In addition, the Mission identified three
USPSC positions−senior public finance advisor, senior economics governance
advisor, and senior trade and investment advisor−for its economic growth
strategic objective that required unique skills and experience. The Mission
believed these positions had to be filled with American candidates with broad,
long-term, international experience who would be viewed as having greater
credibility by host country counterparts.


Did USAID missions award U.S. personal services contracts in accordance
with selected USAID policies and procedures?

USAID missions awarded U.S. personal services contracts in accordance with
selected USAID policies and procedures, including those for full and open
competition4, establishing starting salaries, and setting fringe benefits. However,
USAID needs to clarify its policy on extending USPSC contracts beyond five
years. This is a cross-cutting issue that could affect many USAID missions, and
should be addressed by USAID/Washington. This issue—and a related audit
recommendation—is discussed in detail later in this report.

Using Full and Open Competition

According to the Federal Acquisition Regulation (FAR), Subpart 6.1 - Full and
Open Competition, contracting officers shall promote and provide for full and open
competition in soliciting offers and awarding Government contracts. However,
Contract Information Bulletin5 (CIB) No. 97-16 states that full and open
competition need not be obtained when it would impair or otherwise have an
adverse effect on programs conducted for the purposes of foreign aid. A
justification for other than full and open competition can be authorized as long as
two conditions are met: (1) offers are requested from as many potential sources as is


4
 Full and open competition means all responsible sources are permitted to compete for a contract
under specifically prescribed procedures, such as sealed bids and competitive proposals.
5
  Through the year 2001, CIBs have provided information of significance to contracting
personnel such as advance notification of changes in acquisition and assistance regulations. Also,
CIBs have been used to implement new requirements on short-notice, pending formal amendment
of acquisition or assistance regulations. As of January 2002, Acquisition and Assistance Policy
Directives (AAPDs) replaced the CIB format but continue to perform the same function.




                                                                                                     8
practicable under the circumstances, and (2) justification supporting less than full
and open competition is prepared.

Our tests indicated that—except for isolated exceptions6—USAID missions
complied with policies and procedures for full and open competition in selecting
USPSCs. For example, prior to awarding four USPSC contracts at USAID/Peru,
each position was advertised on the USAID external internet; the candidates were
scored and ranked; and the selection methodology was documented in the
contract files. For six other contracts awarded under other than full and open
competition, the contract files indicated that offers were requested from as many
potential sources as was practicable under the circumstances, and that
authorizations for other than full and open competition for personal services
contracts with U.S. citizens contracted locally of $250,000 or less were
documented. In addition, our tests of six contracts at USAID/Kenya found that
several applications had been received for each position.

Establishing Starting Salaries

AIDAR Appendix D provides two distinct methods for establishing USPSC
salaries: method 1 and method 2. Under method 1, a market value (or salary range
equal to a given GS grade salary range) is established based upon the scope of work
for the position to be solicited. This method avoids using a candidate’s salary
history, which may be in excess of the market value for the position, as a basis for
salary negotiations. It also requires concurrence by USAID’s Office of Human
Resources, Personnel Operations Division (M/HR/POD) for market values set at
greater than the GS-13 salary range. Method 2, on the other hand, permits using a
candidate’s salary history as a basis for salary negotiations. Missions are required
to use method 1 unless a written justification is provided by the Mission Director or
the cognizant Assistant Administrator for using method 2.

Our tests indicated that—except for isolated exceptions7—USAID missions
complied with policies and procedures in establishing starting salaries for
USPSCs. For example, USAID/Indonesia established salaries for 13 USPSCs
using method 1 and established starting salaries for two others using method 2.
Also, tests of 19 USPSC contracts at USAID Regional Economic Development
Services Office for East and Southern Africa found no problems with
establishing starting salaries.




6
 Recommendations addressing these exceptions were made in the reports issued to the individual
missions audited. Those recommendations are summarized in Appendix III.
7
    Ibid.




                                                                                                 9
Setting Fringe Benefits

According to AIDAR Appendix D, USPSCs are not eligible to participate in any
programs based on laws administered by the Federal Office of Personnel
Management (such as incentive awards, retirement, and insurance programs).
Other than the above exceptions, fringe benefits granted to internationally recruited
USPSCs are essentially the same as those granted to USDHs8 (but do not apply to
locally hired USPSCs in most instances). For example, internationally recruited
USPSCs are entitled to:

•       Home leave

•       Rest and recuperation travel

•       Post differential

•       Living quarters allowance

•       Temporary lodging allowance

•       Post allowance

•       Payments during evacuation

•       Education allowance

•       Education travel

•       Separate maintenance allowance

•       Travel and transportation

Our tests indicated that—except for isolated exceptions9—USAID missions
complied with policies and procedures in setting fringe benefits for USPSCs.
Based on interviews with USAID/Indonesia contracting office personnel and
review of contract files and payroll records, all 15 USPSCs−three were locally
recruited and 12 were internationally recruited−received only those fringe
benefits allowed to them. At USAID/Peru, all ten USPSCs−three were locally



8
  An international hire, as opposed to a resident hire, is a U.S. citizen who, at the time of
recruitment and hire as a USPSC, was a resident of a country other than the host country.
9
 Recommendations addressing these exceptions were made in the reports issued to the individual
missions audited. Those recommendations are summarized in Appendix III.



                                                                                                 10
recruited and seven were internationally recruited−received only those benefits
and allowances allowed to them.

USAID Guidance on USPSC Contract
Extensions Should Be Clarified

Having clear, unambiguous guidance is critical to a decentralized organization
such as USAID. This is especially true in the area of procurement, where
USAID contracting officers around the world make decisions that determine
which of many competing offerors receive awards worth many thousands—if not
millions—of dollars. Clear guidance can help ensure that these contracting
officers address similar situations in a consistent manner and, as a result, that
awards are made on a fair and equitable basis.

During the audit, we determined that CIB No. 01-07, which provides guidance on
the extension/renewal policy for personal services contracts, was not sufficiently
clear. This CIB states that extensions or renewals with the same individual for
the same services do not need to be publicized. While on the surface this appears
clear, it can be interpreted in different ways. For example, at one of the missions
audited, procurement officials believed they had the authority to execute
indefinite extensions to personal services contracts without further competition.
Accordingly, they extended the length of two USPSC contracts, one from 5 to 16
years and another from 2 to 6.5 years, without further competition—resulting in
the exclusion of potential candidates. To further complicate matters, the major
duties of these USPSC positions were expanded, which would ordinarily
constitute a change of scope that would signal the need to re-compete the
positions.

In contrast, the Chief of USAID’s Office of Acquisition and Assistance, Policy
and Evaluation Division (M/OAA/PE) opined that—based on the FAR—no
USPSC contracts should be extended beyond five years. Instead, the wording in
the CIB should be interpreted to mean that if the same person will be performing
the same services, a USPSC contract may be extended non-competitively only up
to the five-year limit.

We believe that the wording used in the CIB was probably clear to its author.
However, in practice, its ambiguity has led to different interpretations and
inconsistent procurement of USPSC services. While we understand that the
Office of Acquisition and Assistance is in the process of revising its existing
USPSC policies, we believe USAID should take immediate action to address this
issue and to provide its missions with interim guidance. Accordingly, we are
making the following recommendation.

       Recommendation No. 1: We recommend that the Office of
       Acquisition and Assistance issue interim guidance that



                                                                                      11
                       requires 1) contracts (including extensions/renewals) with
                       personal services contractors be limited to 5 years and 2)
                       contracts with personal services contractors be re-competed if
                       major changes have been made in the associated position
                       description—even if such changes occur prior to the fifth year
                       of the contract.


Evaluation of   In response to our draft report, management concurred with the recommendation
Management      and plans to issue an Acquisition and Assistance Policy Directive (AAPD) to clarify
Comments        the above issues before December 31, 2004. The AAPD constitutes interim
                guidance pending planned revisions to the USAID Acquisition Regulation
                Appendices D and J and issuance of a new Automated Directives System Chapter
                on personal services contractors’ policy and procedures. When fully implemented,
                these actions should significantly improve USAID’s management of its U.S.
                personal service contractor workforce.




                                                                                                      12
                                                                                      Appendix I

Scope and     Scope
Methodology
              The Office of Inspector General’s (OIG’s) Performance Audits Division conducted
              a worldwide audit of missions’ management of U.S. personal services contractors.
              The audit was conducted in accordance with generally accepted government
              auditing standards.

              This report summarizes the results of audit work conducted at selected overseas
              USAID missions (see Appendix IV for the list of audit reports issued). In addition,
              this report addresses one Agency-wide issue identified in the course of these audits.
              Audit fieldwork was performed at following locations:

              ●       USAID/Dominican Republic from September 9 through September 26,
                      2003.

              ●       USAID/Egypt from November 19, 2003 through January 8, 2004.

              ●       USAID/Kenya from November 13 through November 25, 2003.

              ●       USAID/Indonesia from November 4-24, 2003 and from December 15-19,
                      2003.

              ●       USAID/Nigeria from January 15 through February 4, 2004.

              ●       USAID/Peru from November 3 through November 13, 2003.

              ●       The Regional Mission for Ukraine, Belarus and Moldova from October 6
                      through November 26, 2003.

              ●       The Regional Economic Development Services Office for East and
                      Southern Africa from November 13 through November 25, 2003.

              We conducted interviews with mission officials as well as U.S. personal services
              contractors. In addition, we reviewed procurement documentation including
              personal services contracts to determine compliance with USAID policies and
              procedures.

              This audit included an examination of internal controls, including those
              associated with determining missions staffing needs and the missions’
              competitive procurement of, setting of salaries for, and awarding of fringe
              benefits to U.S. personal services contractors (USPSCs). These controls included
              the missions’ strategic plans, annual reports, and activities-approval documents



                                                                                                      13
for their strategic objectives that address the allocation of foreign service
nationals, U.S. direct hires (USDHs), and USPSCs. Internal controls over
USPSCs include guidance contained in the USAID Acquisition Regulation
Chapter 7, Appendix D, various contract information bulletins, and acquisition
and assistance policy directives. In planning the audit, we considered prior
relevant audit findings.

Methodology

In performing the audit, we examined pertinent documentation and discussed
audit-related issues with responsible officials in USAID’s Office of Human
Resources, the Office of Procurement in Washington, D.C. and at the above
mentioned selected missions. The audit work in USAID/Washington focused on
guidance provided to missions on manpower requirements and policies and
procedures on competition, setting salaries, and benefits provided to USPSCs.
The audit work at selected missions focused on efforts to determine manpower
requirements; the “mix” of labor (e.g., USPSCs, USDHs, foreign service
nationals); and the implementation of competition, salary setting, and benefits
aspects of U.S. personal services contracting. Our audit included a review and
analysis of (1) information included in the mission’s active USPSC personnel
files, (2) the mission’s five-year strategic plan, (3) the mission annual report, and
(4) activities-approval documents. This audit did not assess the overall economy
and efficiency of the selected missions' personal services contracting process.




                                                                                        14
                       This page intentionally left blank.                                        Appendix II


Management
Comments
                                                                         SEP 9, 2004



             MEMORANDUM

             To:              IG/A/PA Acting Director, Michael W. Clinebell

             From:            M/OAA, Timothy T. Beans /s/

             Subject: Draft Report on Audit of USAID Missions’ Management of U.S. Personal Services
                      Contractors (Report No. 9-000-04-00x-P)

             Thank you for the opportunity to comment on the referenced DRAFT report. The Offices of
             Acquisition and Assistance (M/OAA) offers the following in response to your DRAFT
             recommendation.

             Recommendation No. 1: We recommend that the Office of Acquisition and Assistance issue
             interim guidance that requires 1) contracts with personal services contractors be limited to
             5 years and 2) contracts with personal services contractors be re-competed if major changes
             have been made in the associated position descriptions—even if such changes occur prior to
             the fifth year of the contract.

                     M/OAA concurs with this Recommendation and plans to issue an Acquisition and
             Assistance Policy Directive (AAPD) to clarify the above issues before December 31, 2004. The
             AAPD constitutes interim guidance pending planned revisions to the USAID Acquisition
             Regulation (AIDAR) Appendices D and J and issuance of a new Automated Directives System
             (ADS) Chapter on PSC policy and procedures.




             Draft Report on Audit of Missions’ Management of U.S. Personal Services Contractors Utilization
             Practices (Report No. 9-000-04-00x-P)




                                                                                                                15
(Page intentionally left blank.)




                                   16
                                    SUMMARY OF AUDIT RECOMMENDATIONS




                                                                                                                                                                                    REDSO EAST &
                                                                               DOMINICAN




                                                                                                                                                              BELARUS &
                                                                                                              INDONESIA




                                                                                                                                                                                                   SOUTHERN
                                                                                                                                                                          MOLDOVA
                                                                                           REPUBLIC




                                                                                                                                                   UKRAINE,
                              Recommendations




                                                                                                                                  NIGERIA




                                                                                                                                                                                                              AFRICA
                                                                                                                          KENYA
                                                                                                      EGYPT




                                                                                                                                            PERU
     Audit Objective One ( Staffing)
     Consider locally recruited PSCs                                                                   X
     Document compliance with USAID policy                                                                                                                       X
     Audit Objective Two (Contracting)
     Document selection of lower-ranked applicant                                      X
     Revise written instructions to selection panels                                   X
     Reclassify position to General Schedule                                           X
     Establish controls for negotiation memorandum                                                     X
     Institute checklist for contract files                                                            X
     Establish standard budget format for contracts                                                    X
     Justify contract extensions beyond five years                                                     X
     Determine how two contracts will be managed                                                       X
     Conduct and document grade level reviews in contract files                                                            X                                                                         X
     Justify and document deviations from mission policy on selection panels                                                        X
     Document the market value of contractor positions                                                                              X
     Classify medical evacuation insurance allowance as a benefit for
                                                                                                                                    X
     internationally-recruited USPSCs
     Adjust one USPSC salary                                                                                                                 X
     Establish procedures for annual leave payments                                                                                                              X
     Maintain certified statements of past salary history                                                                                                        X




                                                                                                                                                                                                                            Appendix III
17




                                                                                                                                                                                                                       17
(Page intentionally left blank.)




                                   18
                                                                              Appendix IV


Worldwide       Eight reports were issued as part of the worldwide audit of U.S. personal
Audit Reports   services contractors, as follows:
Issued
                Report No. 1-527-04-004-P, “Audit of USAID/Peru’s Management of U.S.
                Personal Services Contractors,” January 14, 2004

                Report No. 9-517-04-001-P, “Audit of USAID/Dominican Republic’s
                Management of U.S. Personal Services Contractors,” January 23, 2004 (this
                report represents the pilot audit)

                Report No. 4-615-04-004-P, “Audit of USAID/Kenya’s Management of U.S.
                Personal Services Contractors,” March 15, 2004

                Report No. 4-623-04-005-P, “Audit of USAID/REDSO/ESA’s Management of
                U.S. Personal Services Contractors,” March 15, 2004

                Report No. B-121-04-003-P, “Audit of USAID Mission for Ukraine, Belarus and
                Moldova’s Management of U.S. Personal Services Contractors,” March 17, 2004

                Report No. 5-497-04-003-P, “Audit of USAID/Indonesia’s Management of U.S.
                Personal Services Contractors,” April 6, 2004

                Report No. 7-620-04-004-P, “Audit of USAID/Nigeria’s Management of U.S.
                Personal Services Contractors,” April 23, 2004

                Report No. 6-263-04-005-P, “Audit of USAID/Egypt’s Management of U.S.
                Personal Services Contractors,” May 19, 2004




                                                                             Appendix II

                                                                             Appendix II




                                                                                           19
